Washington, D.C. 20530

April 15, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 2054
Re: Preston James v. United States of America,
S.Ct. No. 20-7533
Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on March 18, 2021. Although
the government waived its right to file a response, the Court has requested that a response be
filed. The government’s response is now due on April 22, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including May 24, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-7533
JAMES, PRESTON
USA

GEORGIA J. HINDE
228 PARK AVENUE SOUTH
STE. 33276
NEW YORK, NY 10003
212-727-2717

